AFFIDAVIT OF SERVICE

SUPREME COURT OF THE UNITED STATES

No. 19-248

eee cee n eee e cee nneenenenenene nena naaanenaesnnnnnenneseeeeeeeeeeennnnennenene xX

WALID JAMMAL, ET AL.,
Petitioner,

v.

AMERICAN FAMILY INSURANCE COMPANY, ET AL.,
Respondent,

wee ennn nee n ence ceca neaneenncenneenneeeseesennenenecccecccceccceneeesseneneeeees X

STATE OF NEW YORK )
COUNTY OF NEW YORK)

I, Simone Cintron, being duly sworn according to law and being over
the age of 18, upon my oath depose and say that:

Iam retained by Counsel of Record for Petitioner.

That on the 2™4 day of January, 2020, I served the within Petition for
Rehearing in the above-captioned matter upon:

Seth P. Waxman

Wilmer Cutler Pickering Hale and Dorr, LLP
1875 Pennsylvania Ave, NW

Washington, DC 20006

(202) 663-6000
seth.waxman@wilmerhale.com

Lauren Suzanne Kuley

Squire Patton Boggs (US) LLP
201 E. Fourth St., Suite 1900
Cincinnati, OH 45202

(513) 861-1241
lauren.kuley@squirepb.com

Attorneys for Respondents
by depositing three copies of same, addressed to each individual respectively,
and enclosed in a post-paid, properly addressed wrapper, in an official
depository maintained by the United States Postal Service, via Express Mail.

That on the same date as above, I sent to this Court forty copies and 1
un-bound copy of the within Petition for Rehearing and two hundred dollar
filing fee check through the United States Postal Service by Express Mail,
postage prepaid.

In addition, the brief has been submitted electronically through the
Court’s electronic filing system.

All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and
correct.

 

Simone Cintron

a Sworn to and subscribed before me
this 24 day of January, 2020.

  

~ Elias Melendez
Notary Public State of New York
No. 24-4799661
Qualified in Kings County
Commission Expires Aug. 31, 2021

# 293603

g

COUNSEL PRESS
(800) 274-3321 + (800) 359-6859
www.counselpress.com
